<html>
<title> - ANCIENT COMMUNITIES UNDER ATTACK: ISIS'S WAR ON RELIGIOUS MINORITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                   ANCIENT COMMUNITIES UNDER ATTACK: 
                   ISIS'S WAR ON RELIGIOUS MINORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

                           Serial No. 114-49

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                               ______
 
                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-605 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                           
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Sister Diana Momeka, OP, Dominican Sisters of Saint Catherine of 
  Siena, Mosul, Iraq.............................................     4
Ms. Jacqueline Isaac, vice president, Roads of Success...........    11
Ms. Hind Kabawat, director of interfaith peacebuilding, Center 
  for World Religions, Diplomacy, and Conflict Resolution, George 
  Mason University...............................................    17
Katharyn Hanson, Ph.D., fellow, Penn Cultural Heritage Center, 
  University of Pennsylvania Museum..............................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Sister Diana Momeka: Prepared statement..........................     7
Ms. Jacqueline Isaac: Prepared statement.........................    13
Ms. Hind Kabawat: Prepared statement.............................    19
Katharyn Hanson, Ph.D.: Prepared statement.......................    26

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49

 
  ANCIENT COMMUNITIES UNDER ATTACK: ISIS'S WAR ON RELIGIOUS MINORITIES

                              ----------                              


                        WEDNESDAY, MAY 13, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee hearing will come to order. 
Today we focus on the minority communities, the many minority 
communities that are under brutal attack--some of them on the 
brink of extermination by ISIS--by ISIS principally in Iraq and 
Syria but elsewhere as well. And we are joined by individuals 
who have personally faced this threat and are familiar with the 
extreme hardship with the grief that displaced minorities face 
in that troubled region.
    ISIS has unleashed a campaign of brutal violence, depraved 
violence, not only against Shia Muslims and fellow Sunnis who 
do not share their radical beliefs, but against vulnerable 
religious and ethnic minorities. And as Ms. Isaac put it simply 
in her prepared testimony, ``We cherish ethnic and religious 
diversity; ISIS hates it.''
    Many Americans may not realize that Iraq and Syria are home 
to dozens of ethnic and religious minorities with ancient 
cultures with deep roots. These communities--Assyrian and 
Chaldean Christians, Yezidis, Alawites, and others--are under 
mortal threat in their ancestral homelands. And the mass 
execution of men, the enslavement of women and children, and 
the destruction of religious sites, is part of the ISIS effort 
to destroy these communities, to destroy all evidence of the 
preexistence of these communities. In fact, ISIS maintains a 
special battalion. They call it the ``demolition battalion.'' 
And that battalion is charged with going after art and going 
after artifacts, religious and historic sites that it considers 
heretical or idolatrous, and their job is simply to destroy 
history.
    The situation for some of these groups was precarious even 
before ISIS. According to some estimates, more than half of 
Iraq's religious and ethnic minorities have fled the country 
over the last dozen years.
    But what they face today is annihilation by ISIS, and the 
influx of ISIS extremists has become a plague. The fall of 
Mosul in June of last year uprooted 2 million souls, 2 million 
human beings. Members will recall the U.S.-led air strikes and 
operations by Kurdish forces last August to break the siege at 
Mount Sinjar where thousands of Yazidi refugee families had 
been trapped by ISIS.
    The physical security and welfare of displaced minorities 
is an immediate priority. Options for U.S. assistance range 
from additional material support to friendly forces, all the 
way to creating safe zones or no-fly zones. And while it is 
important to weigh the costs of each option, we cannot lose 
sight of the fact that people are being kidnapped, people are 
being tortured, women are being raped--and children--and they 
are being killed every day.
    Beyond that we need to focus more on their psychological 
well-being. Many of those people, especially women and girls, 
have been subjected to unspeakable traumas. The young men are 
mostly just slaughtered. And as with any displaced population, 
as their vulnerability increases so does the threat of human 
trafficking. What can be done to better protect women and girls 
at risk of slavery?
    Finally, what can and should be done to keep these 
evacuations from becoming permanent? It would be a tragedy if 
well-intended resettlement fulfilled the goal of ISIS itself, 
in other words to drive these believers out. Are there ways to 
support the reconstruction of local institutions and civil 
society so that post ISIS--and there must be a post ISIS--these 
communities can return and thrive in their ancestral homelands?
    I will now turn to the ranking member, Mr. Eliot Engel of 
New York, who has been a true leader on Syria and on the 
humanitarian and human rights disaster in the region, for his 
opening comments.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
as always for calling this important hearing. And let me also 
thank our witnesses who are joining us today. We are very 
appreciative that you are here.
    This committee has taken a hard look at the brutal campaign 
ISIS is raging in Iraq and Syria. We have learned about the 
broader threat ISIS poses across the Middle East and around the 
world. We know how dangerous this group is. We have heard how 
many people have lost their homes and their livelihoods and 
their lives in the wake of this violence.
    And today we will focus on the heartbreaking struggles of 
Christians, Yazidis and Muslims who have defied the barbaric 
perversion of Islam espoused by ISIS. We will hear about the 
dangers that these communities face every day, how ISIS has 
killed, raped and enslaved those who don't fall in line with 
their fanaticism, and I hope their stories will remind us and 
our partners and allies around the world that we must do 
everything possible to help these people.
    We will also hear about the attempt by ISIS to erase the 
history of these communities. We have all seen videos and 
reports of ISIS destroying ancient sites and historical 
artifacts in the territories they control. Now these are not 
random acts of vandalism. ISIS is deliberately targeting 
cultural property for two reasons. Firstly, to loot and steal 
cultural artifacts to fund their violent campaigns; and 
secondly, to destroy what is left in a calculated effort to 
eradicate minority cultures.
    This form of psychological warfare against the Yazidis, 
Christians, Muslim minorities, and anyone else that refuses to 
bow to their oppression, from the Tomb of Jonah in Mosul to 
Yazidi shrines in the Sinjar region and the historical site of 
Hijra, ISIS is trying to rewrite history. We have seen this 
tactic before--the Bamiyan Buddhas destroyed by the Taliban in 
Afghanistan, the Nazi destruction of Jewish religious property 
during World War II. We cannot allow another vicious group to 
reshape our record of the past. We need to cut off the profits 
ISIS gets from trafficking looted artifacts and to ramp up our 
efforts to save cultural property from destruction.
    A few weeks ago, this committee unanimously passed the 
Protect and Preserve International Cultural Property Act which 
I introduced with Representative Smith, Chairman Royce and 
Representative Keating. This bill would help save cultural 
property from ISIS' campaign and we need to get this bill to 
the President's desk. We also need to stay focused on bringing 
relief to those living under the yoke of ISIS. I hope our 
witnesses can shed some light on what religious minorities 
living under ISIS control need the most.
    The administration's response to degrade and destroy ISIS 
is a good start, but it is a start. The United States has 
worked to cut off financial support to ISIS; to stem the flow 
of foreign fighters; to deliver robust humanitarian assistance; 
to provide military support to our partners including through 
U.S. and coalition air strikes; and to push back against the 
violent ideology promoted by ISIS. But as we will hear today, 
people are still suffering in ISIS-held territory, and I hope 
today's testimony will underscore for my colleagues the need to 
pass a new authorization for the use of military force or AUMF. 
I have said this before and I will say it again and again and 
again until Congress acts on its responsibility and passes a 
new authorization.
    And finally, I want to say that some of us are wearing red 
today. I am wearing a red tie and my good friend Ileana Ros-
Lehtinen is wearing a red blouse, and we are doing this because 
we want to focus on the girls who have disappeared under Boko 
Haram. While Boko Haram is not ISIS, it is certainly 
affiliated. Their attacks are just as brutal and its terrorism 
all around the world and we need to stand up in this Congress 
and show that we will thwart it in any way possible. And I hope 
my colleagues will also wear red.
    So once again I thank our witnesses and I look forward to 
hearing your testimony. And thank you, Mr. Chairman, for your 
leadership as always.
    Chairman Royce. Thank you, Mr. Engel. Our panel that we are 
joined by here today include Sister Diana Momeka. She is a 
member of the Dominican Sisters of Saint Catherine of Siena 
located in Mosul, Iraq. Sister Diana, who was one of many 
thousands forced from their homes by an ISIS offensive last 
year, has been involved in providing assistance to other 
internally displaced Iraqis currently residing in Erbil and 
raising awareness of the plight of minorities displaced from 
Nineveh.
    Ms. Jacqueline Isaac is the vice president of Roads of 
Success, a nonprofit organization dedicated to empowering women 
and minorities in the Middle East. Ms. Isaac's work has 
included refugee aid missions and helping families of victims 
in Iraq and in Jordan and in Egypt.
    Ms. Hind Kabawat is the director of Interfaith 
Peacebuilding at the Center for World Religions, Diplomacy and 
Conflict Resolution for George Mason University. Ms. Kabawat 
has trained hundreds of Syrians in multi-faith collaboration, 
civil society development, women's empowerment, and in 
negotiation skills throughout the Middle East including in 
Aleppo, Syria.
    Dr. Katharyn Hanson is a fellow at Penn Cultural Heritage 
Center for the University of Pennsylvania Museum specializing 
in the protection of cultural heritage specifically on the 
threats to Mesopotamian architectural sites in Iraq and in 
Syria. Dr. Hanson recently served as the program director for 
the Archaeological Site Preservation Program at the Iraqi 
Institute for the Conservation of Antiquities and Heritage in 
Erbil.
    Without objection, the witnesses' full prepared statements 
will be made part of the record. Members are going to have 5 
calendar days to submit statements and questions and any 
extraneous material they might want to put into the record.
    And with that, Sister Diana, please summarize your remarks. 
And Sister Diana, she will push that red button there for you 
there.

  STATEMENT OF SISTER DIANA MOMEKA, OP, DOMINICAN SISTERS OF 
             SAINT CATHERINE OF SIENA, MOSUL, IRAQ

    Sister Momeka. Thank you. Thank you, Chairman Royce and 
distinguished members of the committee for inviting me today to 
share my views on Ancient Communities Under Attack: ISIS's War 
on Religious Minorities.
    Chairman Royce. Sister, I am going to suggest you move the 
microphone right in front there and just project a little bit. 
Thank you.
    Sister Momeka. Okay, thank you. In November 2009, a bomb 
was detonated at our convent in Mosul. Five sisters were in the 
building at the time and they were lucky to have escaped 
unharmed. Our Prioress, Sister Maria Hanna, asked for 
protection from local civilian authorities but the pleas went 
unanswered. As such, she had no choice but to move us to 
Qaraqosh.
    Then on June 10th, 2014, the so-called Islamic State in 
Iraq and Syria, or ISIS, invaded the Nineveh Plain which is 
where Qaraqosh is located. Starting with the city of Mosul, 
ISIS overran one city and town after another giving the 
Christians of the region three choices: Convert to Islam; pay a 
tribute, a jizya, to ISIS; leave their city, cities like Mosul, 
with nothing more than the clothes on their back. As this 
horror spread throughout the Nineveh Plain, by August 6, 2014, 
Nineveh was empty of Christians, and sadly, for the first time 
since the seventh century A.D., no church bells rang for mass 
in the Nineveh Plain.
    From June 2014 forward, more than 120,000 people found 
themselves displaced and homeless in the Kurdistan region of 
Iraq leaving behind their heritage and all they had worked for 
over the centuries. This uprooting, this theft of everything 
that the Christians owned, displaced them body and soul, 
stripping away their humanity and dignity.
    To add insult to injury, the initiatives and actions of 
both the Iraqi and Kurdish Governments were at best modest and 
slow. Apart from allowing Christians to enter their region, the 
Kurdish Government did not offer any aid either financial or 
material.
    I understand the great strain that these events have placed 
on Baghdad and Erbil. However, it has been almost a year and 
Christian Iraqi citizens are still in dire need of help. Many 
people spent days and weeks in the street before they found 
shelter in tents, schools, and halls. Thankfully, the church in 
the Kurdistan region stepped forward and cared for the 
displaced Christians, doing her very best to handle this 
disaster. Church buildings were opened to accommodate the 
people, food and non-food items were provided to meet the 
immediate needs of the people, and medical health service were 
also provided. Moreover, the Church put out a call and many 
humanitarian organizations answered with aid for thousands of 
people in need.
    Presently we are grateful for what has been done, with most 
people now sheltered in small prefabricated containers or some 
homes. Though better than living on the streets or in the 
abandoned buildings, these small units are few in number and 
are crowded with three families, each with multiple people 
often accommodated in one unit. This of course increases 
tension and conflict even within the same family.
    There are many who say, why don't the Christians just leave 
Iraq and move to another country and be done with it? To this 
question we would respond, why should we leave our country? 
What have we done? The Christians of Iraq are the first people 
of the land. You read about us in the Old Testament of the 
Bible. Christianity came to Iraq from the very earliest days 
through the preaching and witness of Saint Thomas and others of 
the Apostles and church elders. While our ancestors experienced 
all kinds of persecution, they stayed in their land, building a 
culture that has served humanity for ages.
    We as Christians do not want or deserve to leave or be 
forced out of our country any more than you would want to leave 
or be forced out of yours. But the current persecution that our 
community if facing is the most brutal in our history. Not only 
have we been robbed of our homes, property and land, but our 
heritage is being destroyed as well. ISIS has and continues to 
demolish and bomb our churches, cultural artifacts and sacred 
places like Mar Behnam and his Sister, a fourth century 
monastery, and St. George's Monastery in Mosul.
    Uprooted and forcefully displaced, we have realized that 
ISIS plans to evacuate the land of Christians and wipe the 
earth clean of any evidence that we ever existed. This is 
cultural and human genocide. The only Christians that remain in 
the Nineveh Plain are those who are held as hostages.
    To restore and to rebuild the Christian community in Iraq 
the following needs are urgent: Liberating our homes from ISIS 
and helping us return; a coordinated efforts to rebuild what 
was destroyed--roads, water and electrical supplies, and 
buildings including our churches and monasteries; encouraging 
enterprises that contribute to the building of Iraq and inter-
religious dialogue. This could be through schools, academics 
and pedagogical projects.
    I am but one small person, a victim myself of ISIS and all 
of its brutality. Coming here has been difficult for me. As a 
religious sister I am not comfortable with the media and so 
much attention. But I am here and I am here to ask you, to 
implore you for the sake of our common humanity to help us. 
Stand with us, as we as Christians have stood with all the 
people of the world, and help us. We want nothing more than to 
go back to our lives. We want nothing more than to go home. 
Thank you and God bless you.
    [The prepared statement of Sister Momeka follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Sister.
    Ms. Isaac?

  STATEMENT OF MS. JACQUELINE ISAAC, VICE PRESIDENT, ROADS OF 
                            SUCCESS

    Ms. Isaac. Honorable Chairman Royce, Ranking Member Engel 
and distinguished members of this committee, I am honored to be 
here today. Thank you so much for having a crucial hearing that 
really is a matter of life or death.
    I am not talking to you as an attorney, I am not talking as 
a politician, I am talking about being a human being who has 
been on the front lines. I have been to Sinjar Mountain. I have 
met the girls that have been kidnapped and raped by ISIS. And I 
am telling you that we need to give them seeds of hope, seeds 
of hope to know that they can live and thrive in their home. I 
am here because I promised these people, my friends across the 
world that I would be their voices today.
    Here are their narratives. I am here today because of a 
women I met named Ecklas. Ecklas was in Mosul at home at night 
and out of nowhere ISIS came in and said, you have two choices. 
You either convert to Islam or you pay the jizya. She gave them 
the money and she said give me 1 minute because my daughter is 
in the bathroom taking a shower. I am just going to get her 
out. They said, you don't have 1 second. They took a torch, 
they lit the house starting from the bathroom where she was 
taking a shower. Ecklas picked up her daughter Rita and she 
thought she could take her to the hospital. She had fourth 
degree burns. But Rita died in her arms.
    I am here today because of Joy, an 11-years-old paralyzed 
kid from the neck down. ISIS found him in Sinjar town. They 
thought that he was useless to society so they picked him up 
with 190 other paralyzed and elderly people and they threw him 
in the borders of Syria.
    But in the midst of all this darkness, I see that there is 
light. Light can break through the darkness, and we need to 
take our role as human beings, push them and help them to 
survive and thrive. Let me tell you what happened to Joy. The 
heroes of today, the Peshmerga army, found him with the other 
190 and they rescued them. And today they are living in safety, 
and the Peshmerga army who is out there risking their lives are 
doing this on a constant basis. They are constantly rescuing 
the innocent.
    One of those innocent girls that I met, I don't want to 
disclose her name for privacy purposes. She was 15 years old. 
And in one night in Sinjar town ISIS came in and took her, with 
a group of hundreds of girls, into a broken down building, and 
ISIS came in and they started to trade, trading her off, 
categorizing these girls as merchandise depending on whether 
they were beautiful in their eyes, how old they were, whether 
they were virgins or not, literally treating them like 
merchandise. She was sent off and she was being raped on a 
constant basis. And she decided to make an escape. She believed 
that she rather die trying. She believed that somebody out 
there, another human being would help her if she made an 
escape. And in one night she broke out of a window and she 
started to make a run for it.
    My brave friend went hours hiking on the top of the Sinjar 
mountain, but ISIS came back for her and took her back. When 
she went to that house they starved her, they beat her, and 
again she said I would rather die trying. ISIS forgot to fix 
the window they broke and she made a run for it, and this time 
she made it to the very top.
    And who was there to stand by her side? The Peshmerga army, 
the Kurdish Regional Government who have already rescued at 
least 480 girls and children, 30 of which are impregnated. Many 
of those that have been impregnated by ISIS committed suicide. 
The others who received the counseling, who received that push 
of hope, that seed that each of us can provide, started to 
dream again, started to see a future.
    Today I ask for four things. I ask that we support the 
brave Peshmerga army who is resisting terror at the front 
lines. They are not just fighting to protect their land. They 
are not fighting to preserve the religious minorities alone. 
They are fighting for the entire world. Second, I ask that we 
provide humanitarian assistance, more and more of it, because 
today there is about 2 million refugees and IDPs living in the 
Kurdistan Regional Government region and they need our support. 
They need psychological counseling to deal with the trauma. We 
are talking about a future generation here. Let us help them 
get the support that they need. Let us help the brave 
government that is on the front lines, the army that are truly 
the boots on the ground. I ask that we recognize their amazing 
rescue efforts.
    And lastly, I ask of you to help their partners. Countries 
like Egypt, who is now taking hundreds of thousands of Syrians 
in their own land. Countries like Egypt, when President el-Sisi 
had heard that 21 Christians were killed in Libya acted 
immediately at deploying those air strikes. Countries like 
Jordan, which is taking in hundreds of thousands of IDPs and 
refugees and also fighting on those front lines. Let us support 
them because this is a matter of national security. It is not 
about them. It is about all of us together.
    I have a video if we have a moment to show these girls are 
going to share with us their stories.
    Chairman Royce. Without objection.
    [Video.]
    Ms. Isaac. These girls have hope. They have hope that we 
are going to help them. Let us all do it together. Thank you.
    [The prepared statement of Ms. Isaac follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Jacqueline.
    Ms. Kabawat.

     STATEMENT OF MS. HIND KABAWAT, DIRECTOR OF INTERFAITH 
   PEACEBUILDING, CENTER FOR WORLD RELIGIONS, DIPLOMACY, AND 
          CONFLICT RESOLUTION, GEORGE MASON UNIVERSITY

    Ms. Kabawat. Thank you Chairman Royce, Ranking Member 
Engel, and other members of the committee. I am honored to be 
here today and speak to you about the status of religious 
minorities in Syria, a subject very close to my heart. Growing 
up as a Christian in Syria, I was surrounded by rich multi-
religious history. I have lived much of my life on road called 
Straight Street, a road so ancient it was mentioned in the 
Bible.
    Today it saddens me to see the Christians in Syria paying a 
very high price for this senseless war. They have been running 
from their villages and homes. They are displaced. Their 
churches are being destroyed. A report by my colleague Dr. Wael 
al-Alelj lists all the destroyed churches in Syria including 
those destroyed by ISIS and by the regime.
    Protecting Christians is essential. But while I urge you to 
do whatever is possible to protect minorities and Christians 
from ISIS, I would like to remind you that ISIS is killing any 
and every Muslim who oppose them, just as the Muslims and 
minorities are killed by Assad regime. My friend Jamila a very 
religious Muslim from Raqqa was threatened by ISIS and escaped 
at night to Turkey fearing death. Some Sunni tribes have 
suffered massive losses to ISIS. For example, ISIS forces 
killed more than 500 youth of Shaitat tribes in 1 day last 
year. Women and children live in constant, traumatizing fear 
afraid of recruitment by ISIS.
    As a Christian, I cannot request safety for my Christian 
community without worrying about others. Yes, we need to create 
safe havens for minorities and all groups threatened by ISIS. 
It is monumental and worthwhile tasks. And when selecting these 
areas, geography is essential. Areas close to Turkish and 
Jordan's borders are the best candidates because of the 
guarantee that those borders will remain secure.
    Additionally, an important component of safe havens will be 
the proximity to protect zones by first liberating all ISIS 
controlled cities in these zones. The security of the safe 
haven will be easier to maintain. In the last 3 years, I have 
regularly visited the refugee camps in Turkey, Jordan and IDP 
camp in Zaatari, in Idlib, Jabal al-Zawiya and others. The 
women there wants to go back home. They want to live without 
fear of crate and barrel bombs.
    As we discuss religious minorities, I urge you also to 
consider the need of women who have been marginalized as well. 
They are the key to peace process and the key to establishing 
community that provides support for one another across 
sectarian lines. Empowering local councils to deliver social 
services is another essential component of establishing safe 
havens for all Syrians. The base guarantee for the prosperities 
of minorities in the Middle East is in a democracy that accords 
everyone the same right and privileges regardless of their 
ethnic or religious background.
    The message to minorities in the Middle East should be one 
of inclusion, equipping and encouraging them to be part of the 
democratic process which is the only possibility to defeat 
extremism and dictatorship in our country. Thank you and I look 
forward for your questions.
    [The prepared statement of Ms. Kabawat follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    Thank you, Dr. Hanson.

  STATEMENT OF KATHARYN HANSON, PH.D., FELLOW, PENN CULTURAL 
       HERITAGE CENTER, UNIVERSITY OF PENNSYLVANIA MUSEUM

    Ms. Hanson. Chairman Royce, Ranking Member Engel and 
members of the committee. Thank you for this opportunity to 
discuss ISIS's destruction of minority religious and cultural 
sites. ISIS's campaign of targeted extermination includes the 
erasure of the outward manifestations of minority religious 
culture which threatens these communities' way of life.
    I study this subject as a Fellow at the Penn Cultural 
Heritage Center of the University of Pennsylvania Museum. But 
like others on this panel, I was in Erbil, Iraq, in August 
2014, when ISIS advanced toward the Erbil Plain. As a program 
director at the Iraqi Institute for the Conservation of 
Antiquities and Heritage in Erbil, I was leading a course for 
heritage professionals from throughout the country--men and 
women of every religion. This training was interrupted and we 
departed abruptly shortly after air strikes began.
    Despite this setback, the desire of Iraqi heritage 
professionals to protect the religious and cultural sites of 
the country remains strong. Based on my current research, 
experience in Iraq and consultation with Iraqi colleagues, I 
want to share some examples of ISIS's destruction. Slide 1 
please.
    Ms. Hanson. In July 2014 in Mosul, Iraq, ISIS destroyed the 
shrine of Nebi Yunus also known as the tomb of the prophet 
Jonah. An analysis of satellite imagery by the American 
Association for the Advancement of Sciences Geospatial 
Technologies Project where I am a visiting scholar confirmed 
this destruction. Slide 2 please.
    This analysis also showed that ISIS removed all evidence of 
the shrine by clearing rubble and grading the site flat. In 
doing so, ISIS erased the physical presence of Nebi Yunus for 
the entire local religious community. Slide 3 please.
    Dura-Europos is an archaeological site in Syria with 
uniquely preserved Roman provincial architecture. It includes 
the world's best preserved ancient Jewish synagogue and one of 
the earliest known Christian house chapels. The chapel dates to 
about 235 A.D. and contains the oldest known depiction of Jesus 
Christ. Slide 4 please.
    The site has now been extensively looted and is currently 
under ISIS control. The before and after image analyzed 
analysis completed by the AAAS's geotech project demonstrates 
that over 76 percent of the site's surface has now been lost. 
Slide 5 please.
    Two months ago I traveled to the Dohuk Governorate in Iraq 
which is adjacent to ISIS-held areas. I met with the director 
of the antiquities department to identify religious and 
cultural sites at risk. This site, Lalish, may be one of the 
only surviving Yazidi religious centers. Slide 6 please.
    ISIS has released two videos that include the defacement of 
an ancient sculpture called the Lamassu. These are human-
headed, winged bulls. In ancient times they represented the 
power of the Neo-Assyrian empire from the ninth to seventh 
century B.C. Today, they serve as important symbols for 
Assyrian Christians. ISIS's defacement is thus intended to 
terrorize the present-day Iraqi Christian community while 
simultaneously destroying ancient artifacts.
    In thinking about how we can address this destruction, I 
would like to offer three recommendations. First, we must 
prepare humanitarian assistance to religious and refugee 
communities as well as to displaced heritage professionals. In 
the near future I will return to Erbil, Iraq, with colleagues 
from the University of Pennsylvania Museum and the Smithsonian 
Institution and there we will work with our Iraqi colleagues to 
determine unmet emergency needs. More programs like this are 
necessary, and the U.S. Government should encourage new 
collaborations in the nonprofit sector.
    Second, this committee should inquire into efforts to 
protect religious and other cultural sites during military 
actions against ISIS. There is a report that should shed some 
light on these efforts due in June 2015 thanks to a provision 
sponsored by Mr. Engel in the National Defense Authorization 
Act. I recommend that this committee scrutinize the report 
carefully for evidence that steps are being taken to avoid 
accidental air strikes on religious and cultural sites and that 
protection measures are incorporated into advisory rules and 
military trainings.
    Finally, there is bipartisan legislation, the Protect and 
Preserve International Cultural Property Act introduced by Mr. 
Engel, Mr. Smith, Mr. Royce, and Mr. Keating. Its purpose is 
twofold. To bring together the agencies that have existing 
mandates to protect heritage, and to eliminate the financial 
incentive for entities such as ISIS to loot religious and 
cultural artifacts. I commend this committee for its bipartisan 
leadership on this bill, and I urge you to advocate for its 
final passage into law.
    I would like to thank the chairman for convening this 
important hearing at a very critical juncture in the 
preservation of religious and cultural heritage. I am happy to 
answer any questions that you have.
    [The prepared statement of Ms. Hanson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Chairman Royce. Well, thank you, Dr. Hanson. That 
legislation by the way has been passed out of committee. It is 
on the floor and we are going to move it shortly. And I would 
just make a couple of observations. One is that this ISIS 
phenomenon, another way it could have been handled was when 
ISIS originally was in Raqqa, as they were leaving Raqqa, there 
were those of us on this committee as well as some of our 
Ambassadors overseas that suggested overwhelming U.S. air power 
hit the ISIS forces in Raqqa or hit the ISIS forces as they 
were leaving in their long caravan as they begin their attacks 
town by town by town, and we did not act from the air at that 
time. We allowed them to take some 14 major cities, culminating 
in taking Mosul, without the use of air power at the time to 
stop them while they were in these long columns.
    Subsequently we began the process in this committee, 
bipartisan, to argue for arming the Kurds. Why? Because the 
Kurdish battalions were strung out on a 600-mile front with 
ISIS. They were the one effective force not just fighting ISIS 
but taking in behind their front lines Christians, Yazidis, 
other minorities, and willing to put themselves at risk to go 
into territory, ISIS-held, in order to rescue Yazidis and other 
minorities, and they were fighting with small arms fire against 
ISIS which had become the best financed terror group in the 
history of any terror organization because they took the 
Central Bank at Mosul and had at their disposal enormous 
wealth, and because they took weapons along the way.
    So our efforts have gone on now, I would say, for 9 months 
to try to get into the hands of the Kurds the anti-tank 
missiles, the artillery, the long range mortars that they need 
on the battlefield. Thirty percent of these Kurdish battalions 
are females. They are women fighting on the front lines against 
ISIS and they are fighting without adequate equipment. And as 
you put it so well, they are fighting for civilization. Not 
just their own, for other religious minorities and, frankly, 
for a principle. And because of the pressure from Iran, 
pressure on Baghdad--yes, you can support the Shia militia but 
you can't give support to the Kurds--for whatever reason, the 
weapons dribble in and this is wrong. This is immoral.
    The other point I would make, I just wanted to ask you some 
questions on the issue of the sale of female captives from 
religious minority groups to ISIS fighters. How extensively has 
ISIS been involved in what we here call sex trafficking or 
slavery, frankly, particularly the kidnapping and sale of women 
and girls from these overrun communities? Has it been an 
outcome of lawlessness or is it part of a more deliberate ISIS 
policy to destroy and to subjugate those who do not share their 
fanaticism? Ms. Isaac.
    Ms. Isaac. Looking at the ISIS philosophy, they believe 
that the Yazidi people in particular are not only to be 
tortured but they are to be destroyed in every single way 
possible. They want them off the face of this earth. And so it 
is a philosophy to destroy them and to torture them.
    With the girls particularly that I met, they in one night, 
because they felt safe in the beginning in Sinjar town, and in 
one night ISIS came and took all of these girls. And they told 
them first, they gave them an option. They said will you become 
a Muslim? Will you convert to Islam? And many of them said no. 
And they told them, you are going to be Muslim regardless 
because we are going to sleep with you. And the moment that we 
do that, once we rape you, you will be Muslim.
    Many of these girls who chose not to be, some were raped 
and came back believing that they were forced into this 
religion. This is barbaric. It is systematic. Today it starts 
with the Yazidis. Tomorrow it is going to be not only the 
Christians but every woman that doesn't fit within their 
philosophy. We need to stop the menace that is going on there. 
We need to stop it at its root.
    This is a nerve center. Right now all the crazies from all 
over the world are coming to this center point, to this nerve 
center. If we can cut the snake at its head we can diffuse 
them. Their sex trafficking is systematic and it will continue, 
and it can reach our families if we don't do something about 
it. Thank you.
    Chairman Royce. Let me also ask about psychological 
counseling, and I would ask that of the panel. What type of 
trauma resources are available right now for those who have 
escaped and what more is needed? Sister?
    Sister Momeka. Yes. I would say from my work on the ground 
we don't have that strong programs to talk about trauma. 
Because I just experienced a case about 4 weeks ago, a woman 
who was released by ISIS with 20 Yazidi women. The Yazidi women 
told us that this is a Christian, you take her and we go to our 
Yazidi families.
    So the woman was totally devastated. She is in her 40s. She 
was brutally beaten, raped constantly, yet that her 
psychological situation is totally destroyed that she can't 
control herself anymore. When she tells her story how they 
tortured her in so many ways that when one of the sisters who 
took her and took care of her, she found all her body was so 
many cigarettes with the burn of the smoke and all that.
    So the woman now, we put her in a safer place, yet we are 
trying to find a good psychological treatment for her yet it is 
not that available where we live exactly. So we lack for that 
thing. So the social psychological programs, I think they are 
the most important thing to look forward to work on at this 
moment.
    Chairman Royce. Well, thank you. My time is about to expire 
so I will go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Dr. Hanson, let me 
start with you. First of all, thank you for being here today 
and thank you for your work to help Iraqi citizens save their 
religious history. As you know, America has a long history of 
leading the world in efforts to protect religious and cultural 
sites from destruction and you are carrying this legacy forward 
today.
    During times of crisis such as those in Iraq and Syria, our 
first priority must always be in saving lives. And I thank the 
other witnesses in emphasizing that as well--Ms. Isaac about 
the women's aspect and our witnesses about how this is 
affecting everybody. We are committed to the priority of saving 
lives, but we also must ensure that we stop ISIS from 
destroying the history of these groups. And as we create safe 
havens to protect religious minorities, Dr. Hanson, how do we 
also keep the religious sites and cultural history safe from 
ISIS as well?
    Ms. Hanson. Thank you. I think it is very important that we 
make sure that we are supporting local actions; that local 
actors are able to protect the sites. It is much like with the 
firemen that you make sure that you provide the hose and the 
water. I also think that in terms of safe havens for 
individuals, we can also think about that as safe havens within 
a country for portable objects and artifacts and that there are 
safe locations where things can be moved. And we have seen that 
successfully take place in Mali, for instance, recently.
    Mr. Engel. Thank you. Ms. Kabawat, let me ask you this 
question. According to State Department testimony last summer, 
some of ISIS's religious minority captives have been able to 
escape while their captors were distracted by coalition air 
strikes. To what extent have coalition air strikes affected 
religious minorities?
    Ms. Kabawat. When we talk about effect of the air strikes 
it affect both the majority and the minorities, because they 
did hit some civilian places. And I was in Harem 1 month before 
they started and where I was, was lots of civilians has been 
hit. And the problem is that they need to have more homework. 
They should know where is the civilians. So when we want to say 
targeting civilians, minorities, we need to say targeting 
civilians and we cannot say only minority because sometimes it 
is hitting everybody. Thank you.
    Mr. Engel. Thank you. Let me ask Ms. Isaac and also Sister. 
ISIS is raging obviously a campaign of destruction against 
religious sites across the territory that they control. We saw 
the slides and pictures. Can you comment on the impact the 
destruction of religious sites has on the people who share a 
religious connection to those sites? What do we lose when ISIS 
destroys these sites? Why don't we start with Sister and then 
Ms. Isaac.
    Sister Momeka. What do we lose? I would say we lost 
everything, sir. We lost everything that today every Christian 
that is living in the region of Kurdistan we feel we don't have 
dignity anymore. When you lose your home you lose everything 
you have. You lose your heritage, your culture. You become with 
no identity. And today that is how we see ourselves.
    And the most brutal thing was to us when it was put on TV 
that two monasteries that were one of them bombed and another 
one destroyed just was a sign for us and that your history is 
gone, you are nothing anymore. That is how we see ourselves 
now, homeless.
    Mr. Engel. Thank you. Ms. Isaac?
    Ms. Isaac. Thank you, Member Engel. As an American of 
Egyptian descent I moved to Egypt when I was 13. And I remember 
holding on to the heritage knowing that there were ancient 
churches still there. Even if we were the minority, I had a 
tie. I could identify with my ancient churches.
    Today in Iraq you have the Lalish Center which is still 
preserved with the Yazidis. That is the mecca for them. That is 
their Rome. Today they hold on to that. And the Peshmerga army 
is working so hard to protect that area because they know that 
if that is gone the Yazidi people will feel hopeless. They 
won't be able to identify anymore with the land that they have 
remained in for many, many years.
    For religious minorities in this region our heritage is 
everything. It ties us to that land. It keeps us there. And we 
are not supposed to just be there to survive, we should be 
living there to thrive. We should be able to worship freely, go 
to the heritage sites, bring our children and our grandchildren 
and talk about that history. Without those sites we have lost 
it all. Thank you.
    Mr. Engel. Thank you. And let me again thank all four of 
you for wonderful testimony and for wonderful coverage. We 
really appreciate it. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. Our Chairman Emeritus Ileana 
Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Today's 
hearing as we know focuses on a subject that all too often gets 
overlooked or ignored when discussing the crisis in the Middle 
East, and specifically the fight against ISIL. We have 
discussed this in our Middle East and North Africa Subcommittee 
on several occasions alongside Chairman Smith and his 
subcommittee, and Chris Smith has been a tireless advocate for 
this issue.
    ISIL has issued warnings to Christians in Iraq that they 
can convert, pay taxes or be killed. Churches are being 
destroyed, religious artifact sites are being raided, and many 
Christians and other religious minorities have been forced to 
flee. ISIL massacred 20 Coptic Christians in cold blood in 
Egypt, but the list goes on and on. However, we must 
acknowledge that ISIL doesn't just target religious minorities. 
Everyone who doesn't ascribe to its form of Islam is a target.
    So that is why it is imperative that we not only defeat 
ISIL but we find a way to defeat its radical ideology as well. 
It is also important to recognize that the persecution of 
religious minorities isn't just isolated to ISIL or to Iraq or 
to Syria. The U.S. Commission on International Religious 
Freedom has repeatedly called upon the Obama administration to 
designate countries like Iraq, Syria and Egypt as Countries of 
Particular Concern. That is a special classification. Why? For 
their systematic, ongoing and egregious abuses that the 
religious minorities face in those countries.
    Many of us in this committee have decried the fact that the 
Iranian regime's deplorable human rights record and its 
persecution of religious minorities were not made a part of the 
nuclear negotiations from day one since the P5+1 efforts were 
announced. A nuclear deal will legitimize the Iranian regime 
and will only serve to make the atmosphere even worse for 
religious minorities in Iran.
    Iran's meddling in Iraq, its support for Shiite militias, 
those have played a significant role in the rise of ISIL and 
the current difficulties that we face in the region in the 
fight against the terror group in Iraq and Syria. And now we 
have seen the size of the religious minority communities 
decline dramatically in Iraq and Syria as a result of ISIL's 
onslaught.
    So Sister Diana, I will ask you. You have felt the pain and 
the suffering in your own community and you have been witness 
to what ISIL has done to ancient religious communities of Iraq. 
You have been displaced twice. Can you describe for us the 
conditions in Mosul where you were forced to flee to Kurdistan, 
and could you also please detail the conditions in Kurdistan? 
And lastly, what more can we do to meet the needs of religious 
minority communities? Where can we be most effective?
    Sister Momeka. Thank you, Ms. Ros. I would answer your 
question in a story that touches my heart a lot and the heart 
of the people that we are working with. When we were forced to 
leave our children became without any education, without 
school. So as a congregation we care a lot about education as 
Dominicans, so we start opening kindergartens. So we had 135 in 
one of the kindergartens. In one of their classes we handed 
them papers to draw on the paper. Amazingly, most of the 
children, they draw back home, their hometowns. They draw, 
some, their beds, church, homes, everything that they relate 
back home. So when we ask them, why did you do that? They said, 
like, we miss home. We want to go back home. We want to live 
normal life.
    A 5-year-old, when he stood up and he said, I don't feel 
like I am home here. When I was home I used to go to the 
kindergarten. I used to go to church with my family. I used to 
play with my toys, with my friends. That was a normal life when 
we were back in our homes. We used to live normal life. We 
would have education. Our parents, brothers, sisters, if they 
are employed they would go to work.
    Now it is the opposite. People are jobless. Women do not 
have any work to do. They are living in containers or living in 
unfinished buildings facing terrible conditions besides. The 
humanitarian aid is not enough for them. So it is so different 
that today even our children, what I want to say, our children, 
they feel that they don't have a place to live properly. They 
don't have home. So our life has changed tremendously. And 
since before we were this bridge that we can connect among the 
diversities, now we feel we are alone. We are abandoned. That 
is how we feel.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. We 
certainly know that ISIL doesn't discriminate. You are either 
with the terrorists or they will destroy you or subjugate you. 
Thank you.
    Chairman Royce. Thank you, Ileana. We will go to Mr. Brad 
Sherman from California.
    Mr. Sherman. Mr. Chairman, the two most powerful forces in 
the Syria-Iraq-Lebanon area are the Shiite alliance in Iran on 
the one hand, and the extremists Sunnis on the other. What we 
have seen our friends, Saudi Arabia and others, do, is move 
toward what they will accept as ``moderate Islam or acceptable 
Islam,'' and embrace the Brotherhood--Turkey, Qatar--and 
perhaps even al-Nustra, which is after all part of al-Qaeda. 
Had we done more to strengthen the more reasonable Sunnis 
earlier in the process, perhaps Saudi Arabia would not be 
taking that action. The good news is there has been reports in 
the last \1/2\ hour that the number two commander in ISIS has 
been killed. I hope that is true. We will see.
    Mr. Chairman, you commented that ISIS has all this Iraqi 
currency. Iraq should of course issue new currency making its 
own currency invalid. Many countries have done this. This is a 
process that is hated by corrupt politicians and drug dealers 
with large amounts of currency of their own, and of course the 
Iraqi Government has failed to do so which leads to a possible 
conclusion that perhaps corrupt politicians with huge stashes 
of cash have some power in Baghdad.
    This Congress passed the Near East South Central Asia 
Religious Freedom Act. That required that the State Department 
have a special envoy for religious minorities in that region. 
We are still waiting for someone to be appointed. Do not hold 
your breath. The attitude of the administration toward 
following laws just because they are laws is less than I think 
it ought to be.
    Speaking of laws passed by Congress, we authorized $1.6 
billion in NDAA to counter ISIL. This included, the 
authorization was amended to include provisions for local 
security forces on the Nineveh Plain including Assyrian and 
Yazidi forces. So far that hasn't happened. And of course 
communities that cannot defend themselves are in a difficult 
circumstance on the Nineveh Plain.
    One of our witnesses has been unabashed in support of the 
Kurdish Government. Ms. Isaac. I had in my office yesterday 
representatives of the Yazidi, Assyrian and Kurdish communities 
that took a very different view of the Kurdish Government. 
Perhaps a balance between the two is that the Kurdish 
Government has provided sanctuary but has not allowed these 
groups to form their own national guard battalions. And no 
group on the Nineveh Plain is going to be safe unless they have 
their own national guard.
    Mr. Chairman, I would like to see us bring to testify 
before this committee one of the Yazidi women who has 
successfully fled from ISIS. This would require that the State 
Department provide an entry visa, and if the woman or girl was 
coming from Kurdish areas we would need to get an exit visa 
from that government. Mr. Chairman?
    Chairman Royce. Just if I could interrupt for a minute. We 
did have a young Yazidi woman, a young girl, slated to testify. 
She had to drop off of the trip because of health reasons. But 
we will achieve your goal here. And I will relinquish the time 
back to you.
    Mr. Sherman. Thank you. Ms. Kabawat, minorities are being 
given the choice--convert, flee, die or pay a very unfair tax. 
Now I put three of those in one category. The jizya is 
something that Muslim governments have imposed upon the 
minority communities for centuries, and in prior centuries it 
has been a tax that was endurable. Of course it is outrageous 
and unfair.
    Is ISIS imposing a tax that is outrageous, unfair, but is a 
practical thing that the communities could pay, or is it just 
an excuse for them to say, well, we want to confiscate 
everything on Monday. That is your Monday tax. And on Tuesday 
you don't have anything left so we are going to kill you. Is 
ISIS offering to allow at least Christians--the Yazidis of 
course would be treated differently under their rules--a chance 
to stay in their homes and pay a tax consistent with what is 
possible? Of course it is outrageous.
    Ms. Kabawat. Just talking about Syria, in Raqqa where the 
ISIS has full control most of the Christian get out. There is 
not many Christians now in the ISIS-controlled area like Menbij 
or Raqqa. The one that are there they in hiding. They did say 
that they are asking for jizya and it happened few times, but I 
think there is not many Christians in this area. They are 
already gone. And in other things, the Christians now they are 
all in Aleppo or stayed in Idlib, and others they have been 
away. But where there has been now in where there is the 
moderate Muslims' control, they are not being asked for any 
jizya because they treat them as an equal citizen. Thank you.
    Mr. Sherman. I believe my time is expired.
    Chairman Royce. Thank you, Mr. Sherman. Mr. Dana 
Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much. Let me identify 
myself with Mr. Sherman's point about the Iraqi currency. We 
must get to the bottom of who the heck is paying for ISIS, what 
government is responsible for providing them money, and whoever 
that is we need to make sure we come down like a ton of bricks 
on that government. And we must make sure that that is a high 
priority for this government to find out who is financing this 
sinful and this horrendous atrocity against the people of the 
world. Whatever faith you are, whether you are Islam or 
Christian or whatever faith you are, this is an abomination to 
any belief in God, and we must stand in unity with people of 
all faiths in this endeavor.
    And I want to thank Chairman Royce and Engel who have 
demonstrated again the bipartisan nature of many of these 
challenges that we face and that standing together America, if 
nothing else, because we come from, we are made up of every 
race, religion and ethnic group in the world. We are supposed 
to be the one that sets the standard for the world. And we can 
do that by making sure that we don't cozy up to people and 
remain friends with people who are financing this type of 
atrocity.
    And I would like to--look, it is a perplexing position 
because people are being murdered in this part of the world. 
Your friends, your relatives, really innocent human beings are 
being savaged. Should our focus be on trying to defeat and 
eliminate the evil forces that are at play or should it be to 
extract people from this danger zone to get them here? I wonder 
if any of you have any thoughts on that. All of you, just go 
right ahead.
    Ms. Kabawat. Mr. Congressman, I think the solution is to 
stop the conflict. We have a conflict in Middle East. I am 
talking now about Syria. We have a conflict, and you are asking 
about who is paying ISIS. They don't--they took banks, they 
steal, they do everything they can not to have to be dependent 
on anybody to get their money. If we want to get rid of them we 
need to end the conflicts. There is a conflicts now in Syria 
and people are suffering, and today we need to think about 
those civilians, how to stop their suffering.
    There are ISIS attacks every day. People are scared. And I 
know many people there escaped. Even if they are Muslims they 
escape because ISIS will be threaten their lives. So if we want 
to stop the ISIS we need to stop the conflict in Syria. We need 
to stop the caliphate and we need to stop the dictator. Most of 
them are the enemies of the security and the safety and the 
future for Syria. Thank you.
    Ms. Isaac. Congressman Rohrabacher, when I take a look at 
all the religious minorities that I have met when I was in Iraq 
and I look at their ancient history, you know that they belong 
there and they want to stay there. And if we try to get rid of 
the problem by just bringing the religious minorities here----
    Mr. Rohrabacher. Yes.
    Ms. Isaac [continuing]. ISIS will spread everywhere. It 
will continue. Right now we have a diverse fabric in the Middle 
East and it is really protecting not only the region but the 
entire world. The fact that there are Christians and Yazidis 
and Jews in that region today makes the Middle East what it is. 
We need to look at the bigger fight and understand that ISIS is 
against the entire world. Their short term plan right now is 
trying to get rid of the religious minorities of the region and 
creating their state. But tomorrow it is going to be to attack 
the entire world.
    Mr. Rohrabacher. I think that your point is well made. And 
I just, I know that Sister Diana had trouble even getting here. 
We should not be having barriers to people especially coming 
here to make their case and to warn us. At the same time, and I 
have just a few seconds left, let me just say that we need also 
to make sure that we are standing behind those people like our 
friends the Kurds up in Erbil who are making this stand. We 
haven't even solved that problem yet, Mr. Chairman, where our 
supplies could go directly to the Kurds. Some of them are now, 
but as many of them you have to go through Baghdad in order to 
get the supplies there.
    We should be making sure anyone in that region who is 
fighting ISIS gets the full support and direct support from the 
people of the United States. And you are in our thoughts and 
prayers. We know that you are all these communities. I visited 
a community in Syria. My wife and I actually went and said that 
was one of our most important experiences in our life where we 
said the Lord's Prayer in Aramaic as Jesus spoke. So hang 
tough, we are with you.
    Chairman Royce. Brian Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman. And I just want to 
thank the panel here. Testimony has been both eloquent and 
compelling. I just want to focus for a moment on the Christian 
community in the Middle East. ISIS has declared war on 
Christians. ISIS wants genocide now. They want to eradicate 
Christians from the Middle East and Africa. Christian kids have 
been beheaded, their mothers raped and their fathers crucified, 
literally.
    ISIS believes that Christians are standing in the way of 
their world conquest. Anything that is pre-Islamic they want to 
destroy and want to prepare the world for the coming of the 
Islamic Caliphate. Christians in the Middle East and Africa are 
losing entire communities that have lived peacefully for 2,000 
years. Five hundred thousand Christians, Christian Arabs, have 
been driven out of Syria during the last 3 years of civil war. 
Christians have been persecuted and killed from Lebanon to 
Sudan, well, now South Sudan, and civil wars have lasted 
decades.
    In Iraq, Mosul is a Christian city, the second largest city 
in Iraq. Christians have been living there for 1,700 years as 
you know better than anybody. After the fall of Saddam, the 
numbers of Christians in Iraq were estimated to be about 
45,000. Sister, today how many Christians are living in Mosul?
    Sister Momeka. Very few. Only those who have been held 
hostages there. We don't have the exact number. Maybe a couple 
hundred or less.
    Mr. Higgins. 100 or less. And most of those who have fled 
have moved up to Kurdistan?
    Sister Momeka. First of all, they fled to my hometown which 
is called Qaraqosh, and where we----
    Mr. Higgins. Which is where?
    Sister Momeka. It is called Qaraqosh.
    Mr. Higgins. Which is?
    Sister Momeka. Which is close to Mosul, about 20 minutes 
distance southwest of Mosul.
    Mr. Higgins. West?
    Sister Momeka. Yes. And after a week or so our displacement 
happened, which would have never thought that would happen with 
the couple hours that we were forced to leave, which take, it 
is about 1 hour distance from my hometown to Kurdistan. It took 
us 11 hours to go there because some were marching, some were 
driving, and because it was a traumatic state for us. So I 
would say like very few Christians have stayed in Mosul or that 
they couldn't leave because they were asleep when that 
happened.
    Mr. Higgins. Is it the hope of the Christians from Mosul 
who have been forced to flee to one day return?
    Sister Momeka. Yes. The message that I was given before I 
left, they said to me--I have been working every day with the 
IDPs. That is what they call us, actually, there. They said to 
me, Sister, just please tell the community, tell the Members of 
the Congress that help us to go back home. We want to go back 
home.
    Mr. Higgins. What has been the position of Prime Minister 
Abadi relative to the Christian community of Iraq?
    You don't need to say. I get it. Yes. And this is, we were 
told after Nouri al-Malikim who was a thug, left, that things 
would change. That the new Iraqi Government would be inclusive 
of all minorities and communities. And political stability is 
dependent on the ability to embrace the Kurds, the Shia, the 
Sunni, but also the Christian community of Iraq. So that is not 
happening, clearly, and this is just one of many consequences 
of the failure to embrace the minority community.
    And this is again the larger problem in the Middle East. It 
is a highly, highly pluralistic part of the world, and unless 
and until you have minority rights you will never have peace 
and stability. Because a guy like Bashar al-Assad is clearly a 
bad guy. But what is happening is minority groups have a 
tendency to gravitate to him for one reason, because if the 
majority Sunni become head of that country all the minorities 
will be slaughtered. So long as there is a zero sum game in the 
Middle East, the sum will always be zero.
    And I often say in game theory there is also what is 
referred to as a variable sum game saying that there can be 
many winners. And whatever we do there, however much 
humanitarian aid we provide there, however much military 
support we provide in the Middle East, internally the 
leadership that we get behind, the United States, the 
leadership that we support have to embrace, they have an 
obligation to embrace the minority community. Because we will 
be sitting here 5 years from now, 10 years from now, 20 years 
from now and we will be having the same discussion with no 
progress whatsoever.
    So again thank you very much for your testimony and I will 
yield back.
    Chairman Royce. We go now to Mr. Chris Smith of New Jersey.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman, 
and thank you for calling this very, very important hearing and 
to our very distinguished witnesses for your courage, for so 
effectively articulating the plight of the suffering minorities 
in the Middle East, particularly Christians, so thank you for 
that. And all those who are suffering at the hands of ISIS and 
people who are extremists.
    I would like to ask just a couple of questions. The United 
Nations High Commissioner for Human Rights pointed out that the 
ISIS violence against Christians and other religious minorities 
``may constitute genocide.'' May? I find it extraordinary. The 
Genocide Convention couldn't be clearer eliminating in whole or 
in part, even the threat rises to the level of being genocide.
    And of course the international community has always been 
slow to recognize genocide. We didn't do it with Srebrenica, we 
didn't do it in--when I say ``we'' I mean the international 
community--when it came to Sudan. And 100 years later, we 
still, only 24 or so countries have recognized the Armenian 
genocide. So we seem to gag on the word, and I have tried to 
get administration witnesses to say that what is happening to 
the Christians rises to the level of genocide and that simply 
is not stated.
    Chairman Emeritus Ileana Ros-Lehtinen and I have chaired a 
number of hearings on the genocide. We had one last year, 
genocidal attacks against Christians and other religious 
minorities in Syria and Iraq, and again we keep getting, well, 
we will look into it, we will get back. But just say it and say 
it clearly and unambiguously. And I have chaired 14 hearings on 
the suffering of Christians, particularly in the Middle East, 
and we are still getting a lack of embrace of the magnitude and 
the hostility toward people of the Christian faith.
    I would point out that sometimes past is prologue. The 
Clinton administration opposed the International Religious 
Freedom Act of 1998. I know because I held all the hearings and 
marked up the bill. He ended up signing it, but then now we 
find under this administration the post of Ambassador-at-Large 
was idle, was left vacant for half of this Presidency. We have 
a very good man now in that position, David Saperstein, Rabbi 
Saperstein who is trying to make up, I think, for lost time. 
But it was a revelation of priorities that we did not have a 
person sitting in that very important position.
    Approximately 7 months ago legislation passed, totally 
bipartisan, to establish a Special Envoy to Promote Religious 
Freedom of Religious Minorities in the Near East and South 
Central Asia. It was no secret the administration didn't want 
it, but he did sign it. The President did sign it into law when 
it passed in a bipartisan way. But now for 7 months nobody has 
been selected to take that position. That person should have 
the ear of the President and could shuttle back and forth and 
assess what is going on on the ground with clarity and to speak 
out boldly. Nobody has that position. I find that appalling. 
And you might want to comment on that as well.
    And finally, let me ask you. The faith of the young people 
has to have been--I know we saw that wonderful video of the 
resiliency of those young women, but the faith of the young 
people has to be shattered. They must wonder where are the 
faithful elsewhere particularly in the United States. I don't 
think we have done enough, again the special envoy vacancy 
speaks volumes to that. But if I could ask you, where is the 
faith of these young people?
    Sister Momeka. As a matter of fact, Mr. Smith, is that our 
faith, it is amazingly that we see it is increasing more and 
more. It is making us more stronger. We left churches that were 
like used to be filled with people. Now we have only one church 
and you see like young people, or all people they see that we 
still have faith in God; that we were displaced yet we feel 
that the hand of God is still with us.
    So in the midst of, as my colleagues said, in the midst of 
this darkness of this suffering we see a God that is holding 
us. He is holding us, otherwise we wouldn't have been able to 
be witnessing to our faith that is increasing day after day. 
And I think this is one of the gifts of the Holy Spirit that is 
giving us the strength to continue our faith and to be strong 
to stay in our country. Some left, yes, but they are willing to 
go back when we go back home. And we have this hope somebody we 
will go back home, and that will come through your help.
    Ms. Kabawat. Mr. Congressman, the faith with the Christian 
community in Damascus is increasing. We are Christian for 2,000 
years. My family were Christian for the last 2,000 years. Today 
we are more involved in a humanitarian war. We know we have to 
lead by example. This is our Christianity, to help others. That 
is why my family today still in Damascus. My immediate family 
in Damascus, but their faith is to distribute bread for the 
poor, to take care of others because this is what Jesus Christ 
told us, to take care of the small people.
    So in Aleppo, churches are open to like hospitals. In 
Idlib, when they liberated Idlib, the Christian there work with 
the Muslim in the humanitarian issues. So yes, we are 
Christians, but today more than ever we are Christians because 
we know that we need to practice our Christianity on the ground 
and to take care of the small people who are suffering.
    Ms. Isaac. Congressman Smith, I went to Egypt and I met the 
families, 15 of the 21 families that had victims that were 
slaughtered in Libya. I was astonished by their faith. As a 
fellow Christian I thought how would I be if I was the 
situation today? Meeting the fathers that said to me, thank God 
that today they are in heaven. Thank God. A wife talking to me 
about how her husband had said, I am going to Libya and I will 
be in danger. But if I don't make it, teach my children. Teach 
them the principles of Jesus Christ.
    That is the story. These are the accounts of their faith. 
And I have seen it in Iraq across the board how Christians are 
standing strong and helping all, helping the Yazidis. In fact 
we had a case. I remember there was a group of Yazidis that 
found a local church and that church was providing care for 
them, providing a home for them. This is what they are doing. 
They are struggling, but they are giving everything that they 
have. So thank you.
    Chairman Royce. We go to Mr. William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman, for holding this 
hearing, and thank you as witnesses. And I want to let you know 
we all share your commitment to saving lives, saving religious 
and cultural heritages and artifacts and stopping human 
trafficking. I also want to acknowledge, as Dr. Hanson has, the 
legislation of Chairman Royce, Ranking Member Engel, Mr. Smith, 
who I am proud to join in working on this area.
    But I want to focus on one thing I believe that we can do 
more of in the U.S. to really stop these terrible actions by 
ISIL, and that is to look at an issue that time and time again 
has come to my attention as ranking member on the Terrorism, 
Trade, and Nonproliferation Subcommittee, in this committee as 
well as counterterrorism and homeland security, and that is the 
issue where ISIL is not only destroying cultural and religious 
heritages, particularly in Iraq and Syria, but it is doubling 
down on that activity. And either through taxing criminals or 
themselves they are trafficking in these looted antiquities and 
financing their own terrorist operations again, so it becomes 
cyclical. And I saw firsthand, I just came back days ago 
visiting eight countries in the Mideast and Europe, just how 
this is occurring, and in fact had comments from the leaders in 
these areas how smuggling in these antiquities is such a force 
of financing for these terrorists.
    So what I am doing today as well is introducing legislation 
to prevent trafficking in Cultural Property Act, is the name of 
the legislation, and it is geared in on one aspect that I think 
we could easily move toward these activities. And that is the 
fact that even the agencies themselves in Customs and Border 
Patrol and in ICE, they are saying that they are not as 
coordinated as they should be. They don't have the tools to 
gear in on this when these artifacts and trafficking, when this 
trafficking comes through our own border in the U.S.
    One of the things we have to do, I believe, and that is 
what this legislation does, is to work to make sure there is 
principal leadership there, a designated person to really key 
in on this. And also, importantly, to have the training in this 
activity. Because even if that commitment and coordination is 
there, it is important that these U.S. officials receive 
sufficient training in identifying cultural property from 
regions that the greatest risk of looting, like Iraq and Syria, 
and that they know the techniques specifically related to this 
so they can investigate and prosecute this kind of activity to 
really quell the demand in unfortunately one of the destination 
areas of the world, the United States of America.
    So we are working on that. I would like your opinion of how 
from your perspective this could be helpful as well, and I 
think particularly Dr. Hanson has some experience in that 
regard.
    Ms. Hanson. Thank you. What you mentioned is incredibly 
important and it is vital that we remove the financial 
incentive for terrorist groups like ISIS to loot cultural 
sites, religious sites. One of the things we have noticed is 
that prior to the demolition of religious sites, particularly 
shrines, Yazidi shrines and tombs, ISIS has gone in in advance 
and looted artifacts out of that area. Architectural elements, 
things that they can sell.
    And the reason why they are doing looting in those 
instances, and also in the images we saw of Dura-Europos, is 
that there is a market for it. And your legislation and what 
you mentioned is incredibly important in taking action to 
reduce that market. Right now it is crucial that we get import 
restrictions on stolen material from Syria put into place in 
the U.S. As a market country, our demand for that in the U.S. 
is some of what fuels ISIS's actions.
    Mr. Keating. Yes, I was really intrigued when ISIS will 
show the videos of their desecrating these religious 
institutions and sending those videos to the world and saying 
they are doing it because of the sense of pureness, and that 
their only, their narrow, if you want to even call it religious 
beliefs should be the only beliefs. Yet, if these artifacts 
that they are destroying so no one else will be able to 
culturally go forth in heritage, if they are portable, then 
moving them around and profiting on them and preserving them 
just to fuel their own terrorism which, I think, shows where 
their priorities are.
    Quickly, could you just tell me the scope of this? I heard 
in my recent visit it is in the tens of millions of dollars 
that they are getting from this, and that is, I think, under 
reporting because it is pretty hard to get a figure on it. Just 
quickly, last question.
    Ms. Hanson. Very difficult to get a dollar amount on it. We 
know that it is significant. As you saw with Dora-Europos, 
those are moonscapes now and all of those artifacts that come 
out of the ground can get financial benefits for them. So you 
just have to assume that even the lowest estimates have to be 
staggering. I can't give you an exact dollar amount, and that 
is something that we are continuing to research and work on.
    Mr. Keating. Yes. I heard 37 million. I yield back, Mr. 
Chairman.
    Chairman Royce. Mr. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. Ladies, I appreciate 
you being here. The stories are shocking to our conscience. 
Americans need to have their conscience unfortunately continued 
to be shocked because of what continues to happen. But the 
stories break our hearts. There is not much else to say than 
that.
    Dr. Hanson, we have seen ISIS crucify in public squares, 
stone to death women, throw gay people off of buildings, then 
they proudly tweet, post these horrific acts on YouTube, other 
social media. In fact, they have gained followers based on the 
use of social media. The question is, has ISIS's propaganda 
campaign affected the disposition of religious minority 
communities beyond Iraq and Syria, and what effective action 
would you recommend the United States take to combat ISIS, the 
propaganda, and especially on social media? Have you researched 
that and what your recommendations?
    Ms. Hanson. My research doesn't directly encompass social 
media. One of the things that we have noticed in working with 
the cultural heritage destruction and the religious heritage 
destruction is that the videos are very clearly designed to 
demonstrate power and demonstrate terror.
    Right now we have an NSF grant to study what is happening 
with the phenomenon of damage to cultural heritage and why it 
is occurring, and we are working on answering some very basic 
questions like when does cultural heritage damage take place? 
Is it before or after the religious minority population is 
physically threatened and murdered? When it comes to social 
media what is happening with videos is exactly the same thing 
that is happening with the videos of deaths and destructions. 
The cultural heritage sites are being destroyed in a way to 
demonstrate power and terror.
    Mr. Perry. We will wait to hear back from you based on the 
ground if you have any recommendations.
    I would like to turn to Ms. Kabawat; is that right? We have 
been told by the administration that the U.S. Government is 
examining all, and I emphasize all, viable options for 
protecting minority vulnerable communities and halting the 
parade of atrocities ISIS is committing. What do you view? I 
mean you have lived it on the ground. What do you view as the 
viable options for the U.S. to protect these communities if 
there are any?
    Ms. Kabawat. Again, Mr. Congressman, I feel on the ground 
when they hear this kind of comment the people get little bit 
disappointed and angry. We can't protect one minorities without 
thinking about what is happening to the whole country. We are 
talking about thousands of refugees, of Christians, but also 
there are millions of Sunnis and they are paying the price from 
ISIS.
    So the solution will be a package. We don't want to be 
isolated from the other Syrian who we have been raised and 
lived with them all our lives. I want a solution not only for 
the minorities, I want a solution for whole Syria. We need to 
stop the conflict. So when we say we want to protect us it is 
offending me, because I don't want to be protected when my 
other neighbors who is Sunnis is being under attack. So please 
protect the whole civilian. We have so many moderate Muslim, 
Christians. We live together all our lives. So if you want to 
protect us as a Christian, I am asking you, protect also my 
neighbors. Thank you.
    Mr. Perry. Sister Diana, do you think that the ISIS 
targeting of minority communities in areas has primarily been 
due to strategic opportunity just because you are there and it 
is easy, you are vulnerable? Or is there something more 
deliberate? I mean would you articulate if it is one or the 
other or a combination of the two?
    Sister Momeka. As I mentioned earlier, Mr. Congressman, 
that it was quite shock for us because we used to watch the 
news on TV that ISIS took over Mosul, but we never thought some 
day in a few hours we will be out of our homes left with 
nothing at all. I myself only with my habit and my purse, which 
I was lucky I had my passport in it. Most of my sisters and 
most people left with no documents, nothing.
    So it start with Nineveh Plain and it was gradually, so if 
it was deliberately or not I can't say that. But all what I 
know now, we were driven out of our homes within couple hours. 
That was it. Without any warning.
    Mr. Perry. My time is expired. Thank you.
    Chairman Royce. We go now to Mr. David Cicilline of Rhode 
Island.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you for 
calling this hearing. Thank you to our witnesses for your 
really courageous testimony, and the description of the horrors 
and the violence and the sadistic behavior of this terrorist 
organization I hope is something that the whole world 
understands better as a result of your being here today at 
significant personal risk to yourselves and the work that you 
are doing. So thank you for being here.
    As my colleague from Massachusetts said, I think our whole 
committee is of course committed to doing everything that we 
can to support the preservation of cultural and religious 
sites, but more importantly, in my view, to do all that we can 
to protect and save lives. And this effort to destroy cultural 
and religious sites, I think, is clearly an extension of this 
terrorist effort to eliminate entire religious communities in 
this region and something we have to respond to in the 
strongest terms.
    So my first question is, I know there are religious 
minorities--Christians, Yazidis, Shabaks--that have faced 
terrible persecution and have fled their ancient homelands, but 
they are unable to cross the border in many instances so they 
are not technically refugees, they are internally displaced 
persons. And these are obviously very vulnerable populations. 
What can we do, what can the United States be doing better to 
help these communities that are trapped in very unsafe 
locations be in a safer place and provide some protection, 
these internally displaced what I would call refugees even 
though they are not technically refugees because they haven't 
left the borders of their own country? Anyone?
    Ms. Isaac. Mr. Congressman, when I went to northern Iraq 
and I met the Kurdistan Regional Government I was amazed at the 
work that they have done. Not because of meetings I went to but 
because of the ground. I went and saw the girls that were 
kidnapped and raped by ISIS, for example, and I saw the care 
that they were getting.
    Yes, the Kurdistan Regional Government does not have a lot 
of resources, but they are still doing everything that they can 
to make Yazidis, like the girls that we met, Christians, and 
all other religious minorities feel like an equal. In fact, a 
lot of these workers have been unpaid for months at a time to 
give everything that they have to these religious minorities to 
show that they truly are a safe haven. I have never seen a 
people like the Kurdish people, because they have gone through 
their own atrocities so many times they understand what it is 
like to be a religious minority fleeing.
    So I say the solution is to support, number one, the 
Peshmerga army who is really the ones on the front lines and 
are the boots on the ground. Let us help them as they fight 
this war. Let us support them in any way they can. Let us help 
the Kurdistan Regional Government by providing more 
humanitarian assistance to help with not just the medical care 
but also the psychological care.
    When I was in Jordan helping the Syrian refugees, I 
remember there was this little boy, and U.N. Secretary General 
Ban Ki-Moon had flown over, and he said to me, do you see that 
helicopter over there? I said yes. He goes, I hope to God it 
bombs Jordan. I was shocked. I said why would you say something 
like that? He said, because it happened to me, it has to happen 
to everyone else.
    A lot of the children that are coming in to these 
territories have seen so much destruction and trauma and they 
don't know how to deal with it, so in order to protect this 
worlds we need to focus on this new generation. And how do we 
do that? By supporting the Kurdistan Regional Government as 
they work on not just the medical care but that psychological 
element as well. And of course to support the partners like 
Egypt and Jordan who are also bringing in refugees and taking 
care of their people. In Egypt alone they are educating 14,000 
college students from Syria, and thousands, about 40,000 
students in elementary schools are being taken care of. So let 
us support them on the ground.
    Mr. Cicilline. I was just in Jordan and saw at the border, 
the Syrian border, the incredible work of the Jordanians 
supporting over 1\1/2\ million refugees fleeing Syria, and we 
have to be sure that we continue to support that.
    Ms. Kabawat, I know you have----
    Ms. Kabawat. Again, Mr. Congressman, I really emphasize 
about the solution of the protected zone. We need it. I have 
been also in Jordan last month. It is so important to start 
thinking about this. We need to get the civilian in a safe way, 
in a safe area they can be protected from the ISIS and from the 
barrel bombs of the Syrian regimes. We need it. And this will 
give better position for Turkey and Jordan so they can take 
care of other things.
    And we really thanks to the American for all the 
humanitarian aids they are giving to the Syrian people. We 
appreciate it. We know that you are doing a lot. But they 
really need to be in a safe zone, so I really asking you and 
seeking this. It is so important. Thank you.
    Mr. Cicilline. Mr. Chairman, if I might just ask indulgence 
for one final question. I just want to pick up on Congressman 
Higgins' questions about the role of the current Iraqi 
Government. There are many people who argue that ISIS is an 
outgrowth of policies from Iraqi and Syrian Governments that 
have marginalized Sunnis in particular. What do we need to see 
from the current Iraqi Government or a future Syrian Government 
to demonstrate the kind of tolerance and inclusiveness that 
will prevent this kind of violence, and should the United 
States be doing more to condition some of our support to the 
Iraqi Government on their commitment to take certain steps to 
protect minority populations and build a more inclusive 
government? I mean that is, the Syrian solution is the long-
term answer, but in this interim period can we be doing more to 
demand more of the current Iraqi Government?
    Sister Momeka. Mr. Congressman, I think it is very 
important to do such things. Previous, I mean to your question, 
I mean as we are known as IDPs we will be like that forever if 
we don't return home. So if there is efforts from both parts to 
help us to return home, I think that will be the solution, of 
course with your help. So that will give us a better life, 
otherwise there will be no education.
    And it is not about the education and health care because 
that won't happen when you are an IDP. You don't have an 
identity or any entity there. Our entity is back where we 
belong. So I think if there are efforts from both parts to 
return home, there where we can start rebuild, there where we 
can start all over again. Thank you.
    Ms. Kabawat. Regarding Syria, and you are talking about 
long-term, we need to think about few things. First, we need a 
transitions not to destroy the institutions, and this will 
happen only if we have a political solution. We need to 
pressure the regime to come to the negotiation table and make 
a, we need a transitions and we need to include everybody, and 
everything will be good if we can end it within a political 
solutions. This is a long term and this is the best way to 
protect minorities, to save the institutions and have a 
transitions government include everybody.
    Mr. Cicilline. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Royce. Ms. Kabawat, if I could interject here. You 
are suggesting that to get there you need a no-fly zone, a safe 
zone over Aleppo and the other areas where, in Aleppo, for 
example, the business community, the Sunni and Christian and 
Alawite business community is trying to hold out there but they 
have ISIS on the front line, but then intermittently the barrel 
bombs and the chemical attacks occur from the Assad regime 
which are dropped on the city that is trying to hold out 
against ISIS. And so you are saying you believe if there was a 
no-fly zone and there was a prohibition from the dropping of 
the barrel bombs that would help civil society take a foothold 
there? And could you explain that thinking to me?
    Ms. Kabawat. I did witness the barrel bombs when I was in 
Aleppo, and it is very, very hard for the civil society to grow 
when there is an immediate threat to your lives. Yes, I am not 
a military expert, but I believe that we need to stop the 
barrel bombs. This is a first step for the community, for 
everybody.
    Chairman Royce. And you think also that in doing that it 
helps drive an impetus for a settlement because then they can 
see that the society can't be overrun there.
    Ms. Kabawat. Exactly. And we did. There is so many example 
before from the local councils that they could run the 
community and they can include the Christians, believe me.
    Chairman Royce. Well, I have noticed. I mean the 
battalions, I have seen Christian female battalions among the 
Free Syrian Force there as well as Sunni, and I have talked to 
Alawite business community members who were supporting the 
effort there in Aleppo to hold on.
    Ms. Kabawat. Exactly. We need first to have a safe place 
for this community, once we stop the barrel bombs then support 
them with moderate oppositions in all the way we can and we get 
a good example in other local councils. And me, as a witness, 
they knew that I am Christian and I have been working with the 
civil society to empowering the local council and others.
    And I know in Syria, what you see in sectarianism now it is 
a reaction because of all the death it happens. But in the end 
of the day with community we live together, the minute the 
death toll will stop the Syrian people can at least continue to 
live and they can live together.
    Chairman Royce. Well, thank you. I want to thank all of our 
witnesses for their moving and insightful testimony here today. 
And ISIS is in fact conducting a war against religious 
minorities, against tolerance, and, as you have shared, against 
civilization. And I want to thank our panelists for bringing 
the voice of the persecuted, the voice of the Christians and 
the Yazidis and the moderate Muslims and many others to us here 
today.
    And the committee has long been focused on ensuring a 
robust humanitarian response and an effective security strategy 
as well, but on the humanitarian response and the legislation 
that we have on the floor of the House, thank you for 
supporting that legislation today. And I think your appeals for 
safe zones and the longing to return to your homes have given 
us new facts to consider and now, I think, to consider with an 
indelible human face.
    So Sister, thank you, and to all our panelists, thank you 
very much for being with us.
    We stand adjourned.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
